March 22, 2002

PATRICK R. DONAHOE
CHIEF OPERATING OFFICER AND
 EXECUTIVE VICE PRESIDENT

SUBJECT:	 Transmittal of Draft Management Advisory – Fact-Finding Review of
          Actions and Decisions by Postal Service Management at the South Jersey
          Processing and Distribution Center (Report Number LH-MA-02-004)

At your request,1 we reviewed the actions taken and decisions made by Postal Service
management during the anthrax contamination testing at the South Jersey Processing and
Distribution Center in Bellmawr, New Jersey. The attached briefing report and timeline of
events present the results of our fact-finding review (Project Number 02YG008LH001), which
we discussed with you on February 28, 2002. Our objective, scope, and methodology are
discussed in Appendix A.

Because there are no recommendations in this report, a written response is not 

necessary. We briefed the chief operating officer on the results of the review and he 

chose not to provide any written comments. 


We appreciate the cooperation and courtesies provided by your staff during the review. 

If you wish to schedule an exit conference or have any questions, please contact 

Chris Nicoloff, director, Labor Management, at 214-775-9114, or me at (703) 248-2300. 




Ronald K. Stith
Assistant Inspector General
 for Core Operations

Attachment




1
 Based on your December 10, 2001, letter to Congress, which was a follow-up letter to the November 16, 2001,
congressional request to the postmaster general.




                                             Restricted Information
cc: 	Richard J. Strasser, Jr.
     Keith Strange
     Suzanne F. Medvidovich
     Thomas G. Day
     Rudy K. Umscheid
     Kenneth C. Weaver
     Susan M. Duchek




                                Restricted Information
Fact-Finding Review of Actions and Decisions                      LH-MA-02-004
 by Postal Service Management at the South
 Jersey Processing and Distribution Center




                                         Restricted Information
Fact-Finding Review of Actions and Decisions                      LH-MA-02-004
 by Postal Service Management at the South
 Jersey Processing and Distribution Center




                                                   2
                                         Restricted Information
Fact-Finding Review of Actions and Decisions                      LH-MA-02-004
 by Postal Service Management at the South
 Jersey Processing and Distribution Center




                                                   3
                                         Restricted Information
Fact-Finding Review of Actions and Decisions                      LH-MA-02-004
 by Postal Service Management at the South
 Jersey Processing and Distribution Center




                                                   4
                                         Restricted Information
Fact-Finding Review of Actions and Decisions                      LH-MA-02-004
 by Postal Service Management at the South
 Jersey Processing and Distribution Center




                                                   5
                                         Restricted Information
Fact-Finding Review of Actions and Decisions                      LH-MA-02-004
 by Postal Service Management at the South
 Jersey Processing and Distribution Center




                                                   6
                                         Restricted Information
Fact-Finding Review of Actions and Decisions                      LH-MA-02-004
 by Postal Service Management at the South
 Jersey Processing and Distribution Center




                                                   7
                                         Restricted Information
Fact-Finding Review of Actions and Decisions                      LH-MA-02-004
 by Postal Service Management at the South
 Jersey Processing and Distribution Center




                                                   8
                                         Restricted Information
Fact-Finding Review of Actions and Decisions                                     LH-MA-02-004
 by Postal Service Management at the South
 Jersey Processing and Distribution Center

Time Line of Events October 31 - November 8, 2001, and as of February 26, 2002

Ref.    Date                                           Event
 A October 31            Based on a suspected case of anthrax the South Jersey District
     Wednesday           manager closed the Postal Service facility.
 B   November 1          Anthrax testing conducted in the closed Postal Service facility.
      Thursday
 C   November 2          Postal Service facility reopened based on preliminary negative test
       Friday            results.
 D   November 3          Postal Service verbally notified anthrax found, decontamination
      Saturday           completed.
 E   November 6          Postal Service realizes based on test results wrong area
      Tuesday            decontaminated, correct decontamination conducted.
 F   November 6          Postal Service unions advise facility employees to take
      Tuesday            administrative leave because of misinformation about facility.
 G   November 7          U.S. District Court issues order closing facility based on union
     Wednesday           allegation of unsafe work place.
 H   November 8          U.S. District Court dismisses case and facility reopened.
      Thursday
 I   February 26         Postal Service facility, is negative for anthrax since November 6,
      Tuesday            2001. Postal Service cost related to anthrax is $982,430.


Sequence of Events at the South Jersey Processing and Distribution Center

(A) On October 31, 2001, based on a suspected case of anthrax and discussions with
   health experts, the South Jersey District manager closed the South Jersey facility to
   expedite sampling/testing after an employee tested positive for anthrax antibodies.
   On this same day, employees and union representatives were informed about the
   suspected case of cutaneous anthrax and that the facility would be closed as a
   precautionary measure. The employees and union representatives were also
   informed that the Federal Bureau of Investigation would be testing the facility and
   that a medical unit would be available if employees wanted to be tested.

(B) On November 1, 2001, the Federal Bureau of Investigation, the New Jersey
   Department of Health and Senior Services, and a Postal Service contractor
   completed anthrax testing.

(C) On November 2, 2001, a Federal Bureau of Investigation agent telephoned a Postal
   Inspector on the Interagency Anti-Terrorist Task Force with the Federal Bureau of
   Investigation and said preliminary test results indicated anthrax was not present in
   the facility. This Postal Inspector called the assistant inspector in charge who
   verbally provided this information to the district manager that same day, who in turn
   reopened the facility. The district manager made his decision after consulting with
   health officials.


                                                   9
                                         Restricted Information
Fact-Finding Review of Actions and Decisions                                    LH-MA-02-004
 by Postal Service Management at the South
 Jersey Processing and Distribution Center


(D) The assistant inspector in charge told us that on November 3, 2001, a different
   agent with the Federal Bureau of Investigation telephoned him with information that
   anthrax contamination was found near the area where the employee who had tested
   positive for anthrax antibodies worked. According to the Federal Bureau of
   Investigation agent this was generally the information provided and they were
   waiting for the Inspection Service to contact them for specific details. However, the
   Postal Inspector did not contact the Federal Bureau of Investigation because he
   believed the initial information was detailed enough. On the same day, the Postal
   Inspector verbally relayed the information to the district manager, who cordoned off
   the area around the machine thought to have been contaminated. Shortly
   thereafter, a Postal Service contractor decontaminated the machine. According to
   the district manager, his decision to leave the facility open was based on guidance
   from health experts.

    The area was cordoned off around the contaminated machine and employees were
    allowed to take administrative leave or work at another Postal Service facility. Also
    on November 3, 2001, the remaining New Jersey Laboratory test results from
    samples taken October 31, 2001, through November 1, 2001, were negative.

(E) On November 6, 2001, an official with the Centers for Disease Control and
    Prevention was at the facility to assess the quality of anthrax sampling. This official
    provided the state laboratory test results to the district manager and the South
    Jersey facility’s manager of distribution operations. After reviewing the results, the
    manager of distribution operations recognized the wrong machine was
    decontaminated on November 3, 2001. District officials immediately had the
    contractor return to the facility to decontaminate the correct machine. The area
    around the contaminated machine was cordoned off, and employees on duty were
    brought to the administrative offices and informed of the situation. They were asked
    to remain there until they received clearance to return to work.

(F) Also on November 6, 2001, the local American Postal Workers Union and the
    National Postal Mail Handlers Union representatives published a memorandum and
    advised employees to submit requests for administrative leave because they
    believed the facility was unsafe to work in due to misinformation provided by law
    enforcement.

(G) On November 7, 2001, the New Jersey United States District Court closed the
   South Jersey facility based on a complaint filed by the American Postal Workers
   Union, contending that the potential for anthrax infection violated the workers' right to
   a safe working environment. During this closing, Postal Service employees worked
   in other New Jersey Postal Service facilities.

(H) On November 8, 2001, the New Jersey United States District Court dismissed the
   case, and the facility reopened because an agreement was reached between the



                                                  10
                                         Restricted Information
Fact-Finding Review of Actions and Decisions                                                         LH-MA-02-004
 by Postal Service Management at the South
 Jersey Processing and Distribution Center

    American Postal Workers Union and the Postal Service to conduct precautionary
    testing for anthrax at the facility.

(I) As of February 26, 2002, no evidence of anthrax has been found at this facility, and
    according to a South Jersey District official, the closing, testing, and decontamination
    activities at the facility cost the Postal Service about $982,430.

Cause of Events

During this timeframe the Postal Service, law enforcement, and health agencies were
challenged with responding to the threat of anthrax at multiple locations. This caused
chaos, crisis, and communication problems. In addition, the Postal Service had
inadequate guidelines concerning how to respond to the threat of anthrax in Postal
Service facilities. Critical information was verbally communicated which we believe
resulted in decisions that would have been different had the information been
documented.

Corrective Actions

Since this series of events at the South Jersey facility, the Postal Service has
implemented guidelines,2 which address the issues in this report. Specifically, the
guidelines discuss when and who decides that a facility should be closed or if an area
should be cordoned off; and how information, such as positive anthrax test results,
should be communicated. The guidelines do not, however, discuss when or who
decides that a facility should be reopened. According to a Postal Service official, the
decision to reopen a facility is made by Postal Service Headquarters’ officials, in
consultation with health experts.

Conclusions

We acknowledge in this crisis situation the Postal Service was able to successfully
decontaminate the machine identified as testing positive for anthrax. As of
February 2002, the Postal Service has expended approximately $1 million for the
closing, testing, and decontamination of the South Jersey facility.

We recognize the anxiety this situation caused employees at the facility. However, we
have concluded that the actions taken by the Postal Inspection Service, Postal Service
management, law enforcement, and health agencies were made with the intent of
ensuring the safety and health of Postal Service employees and the public. Specifically,
management communicated events to employees in a timely manner, employees were
allowed to remain in the facility, work in other facilities, or take administrative leave. In
2
 The Interim Guidelines for Sampling, Analysis, Decontamination, and Disposal of Anthrax for U.S. Postal Service
Facilities, dated December 4, 2001.




                                                        11
                                              Restricted Information
Fact-Finding Review of Actions and Decisions                            LH-MA-02-004
 by Postal Service Management at the South
 Jersey Processing and Distribution Center

addition, employees were offered medical testing. Based on these actions by Postal
Service management and discussions with union officials we could not determine any
measurable harm had occurred. We also believe that the Postal Service’s implemented
interim guidelines should prevent a similar situation from occurring.




                                                  12
                                         Restricted Information
Fact-Finding Review of Actions and Decisions                                  LH-MA-02-004
 by Postal Service Management at the South
 Jersey Processing and Distribution Center

                                          APPENDIX A

                   OBJECTIVE, SCOPE, AND METHODOLOGY
Our overall objective was to determine the facts surrounding the sampling and
decontamination activities at the South Jersey Processing and Distribution Center.
Specifically, to determine the chain of events that resulted in (1) the wrong machine
being decontaminated, and (2) the two closings of the facility.

To accomplish our objective, we interviewed managers, supervisors, and employees at
the South New Jersey Processing and Distribution Center in Bellmawr, New Jersey, to
document the facts surrounding the sampling and decontamination activities at the
facility. We also interviewed officials with the Postal Inspection Service, the Federal
Bureau of Investigation, and the Centers for Disease Control and Prevention, to
determine their roles in the decontamination activities.

To understand the requirements for decontaminating Postal Service facilities and to
evaluate the adequacy of the contractor’s decontamination activities, we interviewed
officials with the contractor—IT Group, Postal Inspection Service, Centers for Disease
Control and Prevention, and New Jersey State Health Department.

We also reviewed court documents, Centers for Disease Control and Prevention
publications, Postal Service guidelines, laboratory results, United States Code
regulations, New Jersey State Law, and union memorandums to accomplish our
objectives. We conducted our fact-finding review from December 2001 to March 2002.




                                                  13
                                         Restricted Information
